No. 20-649

In the Supreme Court of the United States
LEVEL THE PLAYING FIELD, ET AL., PETITIONERS,
v.
FEDERAL ELECTION COMMISSION
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with the
foregoing BRIEF OF NONPROFIT LEADERS, SCHOLARS, AND PRACTITIONERS AS AMICI
CURIAE IN SUPPORT OF PETITIONERS, via email, this 11th day of December 2020. All
parties consented to electronic service consistent with this Court’s April 15 Order.
Alexandra Anastasia Ekaterina Shapiro
Shapiro Arato Bach LLP
500 Fifth Avenue
40th Floor
New York, NY 10110
(212) 257-4881
ashapiro@shapiroarato.com
Counsel for Petitioners

Jeffrey Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW,
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Respondents

I declare under penalty of perjury the foregoing is true and correct. Executed on
December 11, 2020.

/s Rebecca L.D. Gordon_____
Rebecca L.D. Gordon
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
rebecca.gordon@arnoldporter.com
December 11, 2020

